<html>
<title> - GREEN BUILDING PRACTICES IN THE FEDERAL SECTOR: PROGRESS AND CHALLENGES TO DATE</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]







GREEN BUILDING PRACTICES IN THE FEDERAL SECTOR: PROGRESS AND CHALLENGES 
                                TO DATE

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON GOVERNMENT MANAGEMENT,
                     ORGANIZATION, AND PROCUREMENT

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 21, 2010

                               __________

                           Serial No. 111-147

                               __________

Printed for the use of the Committee on Oversight and Government Reform




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform



                  U.S. GOVERNMENT PRINTING OFFICE
65-557 PDF                WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001













              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                   EDOLPHUS TOWNS, New York, Chairman
PAUL E. KANJORSKI, Pennsylvania      DARRELL E. ISSA, California
CAROLYN B. MALONEY, New York         DAN BURTON, Indiana
ELIJAH E. CUMMINGS, Maryland         JOHN L. MICA, Florida
DENNIS J. KUCINICH, Ohio             JOHN J. DUNCAN, Jr., Tennessee
JOHN F. TIERNEY, Massachusetts       MICHAEL R. TURNER, Ohio
WM. LACY CLAY, Missouri              LYNN A. WESTMORELAND, Georgia
DIANE E. WATSON, California          PATRICK T. McHENRY, North Carolina
STEPHEN F. LYNCH, Massachusetts      BRIAN P. BILBRAY, California
JIM COOPER, Tennessee                JIM JORDAN, Ohio
GERALD E. CONNOLLY, Virginia         JEFF FLAKE, Arizona
MIKE QUIGLEY, Illinois               JEFF FORTENBERRY, Nebraska
MARCY KAPTUR, Ohio                   JASON CHAFFETZ, Utah
ELEANOR HOLMES NORTON, District of   AARON SCHOCK, Illinois
    Columbia                         BLAINE LUETKEMEYER, Missouri
PATRICK J. KENNEDY, Rhode Island     ANH ``JOSEPH'' CAO, Louisiana
DANNY K. DAVIS, Illinois             BILL SHUSTER, Pennsylvania
CHRIS VAN HOLLEN, Maryland
HENRY CUELLAR, Texas
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
PETER WELCH, Vermont
BILL FOSTER, Illinois
JACKIE SPEIER, California
STEVE DRIEHAUS, Ohio
JUDY CHU, California

                      Ron Stroman, Staff Director
                Michael McCarthy, Deputy Staff Director
                      Carla Hultberg, Chief Clerk
                  Larry Brady, Minority Staff Director

  Subcommittee on Government Management, Organization, and Procurement

                 DIANE E. WATSON, California, Chairman
PAUL E. KANJORSKI, Pennsylvania      BRIAN P. BILBRAY, California
JIM COOPER, Tennessee                AARON SCHOCK, Illinois
GERALD E. CONNOLLY, Virginia         JOHN J. DUNCAN, Jr., Tennessee
HENRY CUELLAR, Texas                 JEFF FLAKE, Arizona
JACKIE SPEIER, California            BLAINE LUETKEMEYER, Missouri
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
MIKE QUIGLEY, Illinois
                      Bert Hammond, Staff Director
















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 21, 2010....................................     1
Statement of:
    Green, Henry, president, National Institute of Building 
      Sciences; Ellen Vaughan, policy director, high performance 
      green buildings, Environmental and Energy Study Institute; 
      Lynn Bellenger, president, American Society for Heating, 
      Refrigeration, and Air-Conditioning Engineers [ASHRAE]; and 
      James Bertrand, vice president, Delphi, president, Delphi 
      Automotive Holdings Group and Delphi Thermal Systems.......    57
        Bellenger, Lynn..........................................    73
        Bertrand, James..........................................    85
        Green, Henry.............................................    57
        Vaughan, Ellen...........................................    65
    Kampschroer, Kevin, Director, Office of Federal High 
      Performance Green Buildings, General Services 
      Administration; Kathleen Hogan, Deputy Assistant Secretary 
      for Energy Efficiency, Office of Energy Efficiency and 
      Renewable Energy, U.S. Department of Energy; and Dennis 
      Bushta, Deputy Director, Office of Administration, U.S. 
      Environmental Protection Agency............................     7
        Bushta, Dennis...........................................    33
        Hogan, Kathleen..........................................    20
        Kampschroer, Kevin.......................................     7
Letters, statements, etc., submitted for the record by:
    Bellenger, Lynn, president, American Society for Heating, 
      Refrigeration, and Air-Conditioning Engineers [ASHRAE], 
      prepared statement of......................................    75
    Bertrand, James, vice president, Delphi, president, Delphi 
      Automotive Holdings Group and Delphi Thermal Systems, 
      prepared statement of......................................    87
    Bushta, Dennis, Deputy Director, Office of Administration, 
      U.S. Environmental Protection Agency, prepared statement of    35
    Green, Henry, president, National Institute of Building 
      Sciences, prepared statement of............................    60
    Hogan, Kathleen, Deputy Assistant Secretary for Energy 
      Efficiency, Office of Energy Efficiency and Renewable 
      Energy, U.S. Department of Energy, prepared statement of...    22
    Kampschroer, Kevin, Director, Office of Federal High 
      Performance Green Buildings, General Services 
      Administration, prepared statement of......................    10
    Vaughan, Ellen, policy director, high performance green 
      buildings, Environmental and Energy Study Institute, 
      prepared statement of......................................    67

 
GREEN BUILDING PRACTICES IN THE FEDERAL SECTOR: PROGRESS AND CHALLENGES 
                                TO DATE

                              ----------                              


                        WEDNESDAY, JULY 21, 2010

                  House of Representatives,
            Subcommittee on Government Management, 
                     Organization, and Procurement,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:07 a.m., in 
room 2154, Rayburn House Office Building, Hon. Diane E. Watson 
(chairwoman of the subcommittee) presiding.
    Present: Representatives Watson, Connolly, Cuellar, 
Quigley, Towns, Bilbray, and Luetkemeyer.
    Staff present: Bert Hammond, staff director; Adam Bordes, 
senior policy advisor; Deborah Mack, professional staff member; 
Valerie VanBuren, clerk; Justin LoFranco, minority press 
assistant and clerk; Sery Kim, minority counsel; and Molly Boyl 
and James Robertson, minority professional staff members.
    Ms. Watson. I call the meeting to order. And our first 
order of business is to wish Chairman Towns a happy birthday. 
OK. On three, let's hear it.
    One, two, three, happy birthday, Chairman Towns.
    And welcome. Thank you for sitting in with us.
    All right. I would like to welcome all of you to today's 
hearing examining the application of green building practices 
in the Federal sector. In recent years, there has been a 
movement toward greening various aspects of the Federal 
Government, for improving energy efficiency to constructing 
buildings with environmentally sustainable materials and 
technology.
    The subcommittee will receive testimony from the General 
Services Administration, the Department of Energy, and the 
Environmental Protection Agency, in addition to several 
witnesses from the private sector. I welcome our list of 
distinguished panelists and thank them for their participation.
    Today's hearing will explore how well the key agencies 
responsible for greening Federal buildings are progressing and 
what additional steps should be taken to assure that the 
Federal Government is being proactive in its approach to green 
building practices. Despite the recent growth in green building 
construction and retrofitting of existing buildings across the 
Federal Government, Congress has been slow to conduct oversight 
in this area, in part due to the rapid growth in green building 
projects and also due to the range of agencies involved in the 
undertaking.
    Some of the issues I hope our panelists address today 
include: Finding out how successful current Federal green 
building programs have been to date, and what tangible outcomes 
have resulted from the agencies' collaborations with various 
government working groups, such as the Interagency Sustainable 
Working Group, which is managed by the Department of Energy.
    I am particularly interested in hearing from today's 
witnesses on how the Energy Independence and Security Act of 
2007 [EISA], and Executive Order 13514, among other relative 
statutes, have set the parameters for green building practices, 
and how effectively agencies are coordinating their efforts 
across the government to meet the timelines for reducing 
greenhouse gas emissions and achieve zero net usage in Federal 
buildings by 2030, as directed by Executive Order 13514.
    Given the ongoing debate about the merits of various green 
building certification standards and ratings systems and DOE 
pending notice of proposed rulemaking calling for a revised 
performance standards and for a uniformed set of green building 
standards, I am interested in hearing from the witnesses as to 
what they might think is the best approach for the government 
to take in adopting a uniformed set of green building 
certifications standards.
    With the infusion of funds from the American Recovery and 
Reinvestment Act of 2009, agencies have received additional 
assistance in meeting the requirements for achieving energy 
efficiency and increasing the stock of renovated or new green 
buildings. However, as this source of funding winds down, there 
is a growing concern that agencies will have difficulty in 
continuing to achieve their goals by the dates outlined in EISA 
and related Executive orders. I am, therefore, interested in 
hearing how GSA, DOE, and EPA intend to advance their green 
buildings agenda on an ongoing basis, given their budget 
projections and the deadlines imposed by Congress and the 
executive branch.
    There has been an emphasis on energy reduction usage as it 
pertains to green building projects, and the subcommittee would 
like the panelists' input on how Congress may provide 
constructive guidelines and assistance in this area.
    And, finally, I would like to hear more about how the 
Federal Government's implementation of green building practices 
is affecting the growth of green buildings across the country.
    Again, I want to thank our panelists for joining us today, 
and I look forward to their testimony.
    With that, I would like to call on Mr. Bilbray.
    Mr. Bilbray. Thank you, Madam Chair.
    I appreciate you having this hearing.
    And, Madam Chair, I would just like to start off by 
apologizing to the panel, because before you stands a man who 
stands as a very strong critic. I am very cynical about this 
entire concept.
    Sadly, I am not a cynic by nature; I am a very optimistic 
person. Living proof is I actually thought I could get elected 
some day.
    But the fact is that after 40 years involvement in 
environmental movement, over 34 years involvement in government 
environmental strategies, just history has taught me that 
government is quick to make promises about the environment and 
not just slow to delivery but almost lacking in delivery.
    You know, we promised people that we are going to clean up 
our gasoline; we put additives in that not only rob our gas 
mileage but pollute our air and claim it is good for the 
environment.
    We promised to create offsets for the Washington Capitol 
and said that we are going to make sure that we are not 
responsible for pollution. And while we continue to burn dirty 
coal to power our Federal operations, we talk about how 
terrible it is and how we are so far against it, but we 
subsidize it consistently.
    Frankly, as I look at this issue, I see that it has been 
government regulation that stands in front of innovative 
alternative technologies that could not only save energy but 
save natural resources.
    And so I have to apologize up front. I am going to be very 
critical of saying, it sounds good in a report, but does it 
actually work out? I mean, I have actually seen government 
agencies tell individuals who have used appropriate alternative 
construction techniques: Tear it down, not because it is bad, 
but because it is unapproved by the government process yet. A 
sad commentary to the fact that those of us in government are 
quick to require everyone else or expect everyone else to 
change the way they do business, the way they live, the way 
they make everyday decisions, but government is so slow to 
change our regulations, our attitudes, and our procedures to 
reflect the environmental reality that all of us, all of us, 
including and especially those of us in government, have a 
responsibility to share.
    So, with that, enjoy the testimony. I look forward to 
getting your little tidbits of wit and wisdom on this, but I am 
very critical that there is a huge gap, Madam Chair, between 
the theoretical approach here in Washington and what we think 
is going to get done and hope to get done and what actually 
happens in the real world.
    And I hope by this hearing we can help to try to bridge 
that gap.
    I yield back.
    Ms. Watson. Without objection, the chair and ranking 
minority member will have 5 minutes to make opening statements, 
and without objection, the Members may have 5 legislative days 
to submit a written statement or extraneous materials for the 
record.
    I would like now to recognize the distinguished Member, Mr. 
Towns, for any remarks you would like to give.
    Chairman Towns. Thank you very much, Madam Chair.
    And thank you for recognizing my birthday. Thank you.
    And let me thank you and Congressman Bilbray for holding 
this hearing.
    Over the past several years, Americans have increasingly 
focused on ways to save energy while also saving money. This 
focus has given way to the popularity of what many see as part 
of a solution to America's energy needs, ``going green.''
    The backbone of going green is saving energy, and saving 
energy means saving the environment and saving money. Today, we 
are here to talk about going green as it relates to the 
construction of Federal buildings; in other words, buildings 
paid for with taxpayer dollars.
    The Federal Government is the Nation's largest energy 
consumer. Green building practices are essential to achieving 
the goal of energy conservation. And I fully support green 
initiatives. Going green is essential not only to the 
sustainability of our environment but to the sustainability of 
our country.
    However, I do have some questions about the government's 
progress in implementing green initiatives, like the Energy 
Independence and Security Act of 2007.
    Let me conclude by saying I am interested in learning how 
Federal agencies plan to continue greening the government once 
Recovery Act funds are no longer available. While I am all for 
the greening of Federal buildings, I strongly believe that we 
need to invest taxpayers' dollars very wisely. We need to make 
sure money is spent only on green initiatives that are cost 
effective.
    And I strongly feel that the Federal Government ought to be 
leading the way to energy independence, but the question is, 
are we doing it right? That is the question. And I hope you can 
help us answer that question today.
    Madam Chair, I yield back, and I look forward to the 
testimony.
    Ms. Watson. Well, I am very pleased that you are spending 
some time with us and made that statement. Thank you very much.
    I yield now to Mr. Luetkemeyer for an opening statement.
    Mr. Luetkemeyer. Thank you, Madam Chair. I have no 
statement at this time.
    Ms. Watson. I will now yield to Mr. Cuellar for an opening 
statement.
    Mr. Cuellar. Thank you, Madam Chair. Thank you and Mr. 
Chairman, again.
    First of all, I want to thank the witnesses that are with 
us here today. I think what we are looking at, we are certainly 
looking at some opportunities that I think we are all familiar 
with the opportunities, what it means to green the buildings. 
And I think the ranking member is right, that if we are going 
to be asking the private sector to do certain things, we ought 
to look at our own reflection and see what we are doing with 
GSA or with the other agencies to make sure that we do the same 
thing if we are going to be asking the private sector to do 
that.
    I think we are familiar with the opportunities, what it 
means to the workplace. And I think our first witness has 
talked about what not only the ability to look at, but it is a 
place to work and to spend a lot of time there.
    But I think what we ought to look at today and what I am 
interested in, Madam Chair, is that we look at, what are the 
performance measures? You know, when we talk about greening, 
what does that mean? How do we actually--I am not interested in 
measuring activity; I am more interested in measuring the 
results of what we mean by greening. What about having the 
trained Federal agency staff to make sure that we oversee those 
results? What does that mean? And, if we contract energy-saving 
performance contracts, making sure that we have that available. 
Certainly, activities and efforts that comply with the 
provisions in hindsight is important, also.
    And the other thing that I am looking at also is to, as we 
do those performance measures, make sure that one agency, 
another agency, the other agencies are using uniformity in 
those performance measures.
    And, again, we have to be very careful about this, Madam 
Chair, because I think in the past, when we talked about 
performance measures, agencies, with all due respect, 
sometimes--and I think Members of Congress do the same thing--
is that we measure the activity. You know, what are we doing to 
do this? But I think the results, and that is the definitional 
challenges that we face is, I think, what we ought to be 
looking at.
    So, again, thank you very much, Madam Chair. And I think we 
are going to have a great hearing.
    Thank you to the witnesses.
    Ms. Watson. And I will now yield to Mr. Connolly.
    Mr. Connolly. Thank you, Madam Chair.
    And thank you so much for holding this hearing, which I 
think is very important.
    While I certainly join with my friend from San Diego in the 
caveat that he laid in front of us, I cannot join with him in 
his avowed cynicism. I actually think this is an exciting 
challenge with enormous potential. And when I was chairman of 
Fairfax County, until I came to this Congress, we were doing 
similar things, requiring LEED certification of all of our 
government buildings, a standard reflected certainly in the 
commitment embodied in the Energy Independence and Security Act 
[EISA], and the Executive Order 13514.
    We spend $24\1/2\ billion a year in energy costs as a 
Federal Government, Federal facilities. And if we can meet the 
standards we have set for ourselves of 26 percent energy 
savings by going to LEED-certified buildings, we can save $6 
billion of that cost every year. $6 billion. That is not 
trivial. That is significant. And those are real savings to be 
had as we move forward. And so I think the potential is 
enormous. And we have just got to, as my friend from Texas just 
said, we have to have real metrics and measurable goals and 
milestones along the way to make sure we are in fact reaching 
that savings. But that savings can really help us a lot as we 
go forward.
    We have already got 12 LEED-certified buildings. We are 
committed to carbon-neutral buildings, and we have one now in 
Denver. Obviously, this committee wants to know more about, 
well, all right, what are the plans to making sure we get to 
our goals by 2030? Because they are generating 33 percent lower 
greenhouse gas emissions than normal buildings.
    I might add that sometimes there are upfront costs in going 
to LEED-certified buildings, but the payoff is considerable. In 
my county, for example, we, as a matter of measurement, said, 
OK, it costs a little bit more to initially build a green-
certified building, but by year 14, we start saving that 
money--we fully recouped those costs, and we started saving 
money every year thereafter. And we, as a life span, put 40 
years in a building, even though we usually get more.
    The Federal Government, it is much more dramatic. We put 
100 years on a building. So the outyears in terms of cost 
savings are quite considerable.
    The other thing we are committed to is predevelopment 
hydrology standards for storm water runoff at Federal 
facilities. Very important for endangered estuaries, very 
important for fragile ecosystems, certainly here in the 
National Capital Region, a very important standard as we are 
trying to restore the Chesapeake Bay, the largest estuary in 
the United States.
    And finally, Madam Chair, I believe low-impact development 
techniques can make a big difference when we are looking at the 
entirety of a Federal facility. It may be impervious pavers. It 
may be rain gardens on the roof. It may be an alternative to 
asphalted and impervious service parking lot.
    I will say, however, in my view, we should not be building 
one-for-one structured parking spaces on a Federal facility 
next to a transit station. That defeats the whole purpose of 
what we are trying to do here, and it is an unnecessary expense 
to the taxpayer, and I think we have to abandon that practice.
    But we also, in urban areas, need to use these techniques 
to lower, if you will, what is known as the heat island effect. 
We know that in some urban areas, the temperature variance can 
be 22 degrees higher Fahrenheit than in the comparable rural 
areas because of the radiant heat effect on asphalt and 
buildings and structures. So we, the Federal Government, need 
to make sure that we are cognizant of that and addressing that 
as well. Every 1 degree increase in Celsius increases ground 
ozone levels by 5 percent, leading to higher asthma rates and 
other respiratory illness. So we have an obligation to be 
addressing that, too.
    But finally, Madam Chairwoman, I want to congratulate you 
for holding this and a series of hearings. I think this is a 
very significant hearing, and I think here is an opportunity 
for the Federal Government to strike a blow for the 
environment, for public health, and to help save significant 
amounts of taxpayer dollars while we are at it. Thank you.
    Ms. Watson. Thank you, Mr. Connolly.
    If there are no additional statements, the subcommittee 
will now receive the testimony from our witnesses that are 
before us today.
    We will now turn to our first panel.
    It is the policy of the Committee on Oversight and 
Government Reform to swear in all witnesses before they 
testify. And I would like to ask all of you to please stand and 
raise your right hands.
    [Witnesses sworn.]
    Ms. Watson. Let the record reflect that the witnesses 
answered in the affirmative.
    And you may be seated. And I will now introduce the first 
panel.
    And I would like to start now with Kevin Kampschroer, who 
is the director of the Office of Federal High Performance Green 
Buildings for the General Services Administration.
    Mr. Kampschroer oversees the framework for which GSA 
responds to the challenges of greenhouse gas emission 
reductions and of the American Recovery and Reinvestment Act's 
mandate to move GSA's Federal building inventory toward high-
performance green buildings.
    Kathleen Hogan is the deputy assistant secretary for Energy 
Efficiency in the Office of Energy Efficiency and Renewable 
Energy at the U.S. Environmental Protection Agency, where her 
portfolio of $900 million annually includes energy efficiency 
policy, program, and research. Previously, as a division 
director, Dr. Hogan directed EPA's clean energy programs and 
focused on removing market barriers for energy efficiency and 
renewable energy.
    And Dennis Bushta is the deputy assistant director in the 
Office of Administration for the U.S. Environmental Protection 
Agency. Mr. Bushta previously served as EPA's director of the 
Safety, Health, and Environmental Management Division, and as 
acting director of Facilities Management Services Division. He 
was director of industrial relations for Newmont Mineral Corp., 
and he has worked as an adjunct faculty member at the West 
Virginia University.
    And I would like to welcome all of you and thank you very 
much for being here this morning. I ask that each one of the 
witnesses now give a brief summary of their testimony, and to 
keep this summary under 5 minutes if you can do that. Your 
complete written testimony will be included in the hearing 
record.
    And Mr. Kampschroer, please proceed.

 STATEMENTS OF KEVIN KAMPSCHROER, DIRECTOR, OFFICE OF FEDERAL 
      HIGH PERFORMANCE GREEN BUILDINGS, GENERAL SERVICES 
ADMINISTRATION; KATHLEEN HOGAN, DEPUTY ASSISTANT SECRETARY FOR 
 ENERGY EFFICIENCY, OFFICE OF ENERGY EFFICIENCY AND RENEWABLE 
 ENERGY, U.S. DEPARTMENT OF ENERGY; AND DENNIS BUSHTA, DEPUTY 
    DIRECTOR, OFFICE OF ADMINISTRATION, U.S. ENVIRONMENTAL 
                       PROTECTION AGENCY

                 STATEMENT OF KEVIN KAMPSCHROER

    Mr. Kampschroer. Thank you, and good morning, Chairwoman 
Watson, Ranking Member Bilbray, and members of this 
subcommittee. My name is Kevin Kampschroer, and I am the 
director of the Office of Federal High Performance Green 
Buildings in the U.S. General Services Administration. Thank 
you for inviting us today to discuss the progress and 
challenges with green building practices in the Federal 
Government, and thank you for including my full written 
statement into the record.
    In 2007, under the Energy Independence and Security Act, 
Congress created the Office of Federal High Performance Green 
Buildings to enable and enhance Federal leadership in 
sustainable real property portfolio management and operations. 
The office now combines deep knowledge of Federal processes 
with multidisciplinary expertise in high performance green 
buildings, providing leadership both within GSA and the Federal 
Government, as well as influence and interaction with the 
broader commercial property market, to ensure that our 
buildings minimize their burden on both the environment and the 
taxpayer.
    A principle duty of the office is to ensure full 
coordination of high performance green building information and 
activities within GSA, and this duty expanded with the passage 
of the Recovery Act. Under the Recovery Act, GSA received $5.55 
billion to be reinvested in the Federal buildings portfolio and 
to create a few new buildings as well on an accelerated basis. 
And, in fact, GSA to date has done four times as much work in 
this regard as it ever has done before, and today we stand with 
contracts in place of $4.4 billion.
    GSA has leveraged its specialized expertise in 
sustainability and procurement practices to support the 
investment of these funds consistent with the intent of the 
Recovery Act. In the months immediately following the passage 
of the Recovery Act, we engaged directly across GSA, in the 
public buildings in particular--service in particular, to 
provide support to the development of and the plan for 
executing these projects.
    We established minimum performance criteria to guide the 
scoping and execution of projects to transform Federal 
buildings into high performance green buildings that use less 
energy, have better indoor environmental quality and health and 
performance conditions, reduce pollution, and produce less 
waste. Building tune-up, lighting, HVAC, retrofit and 
replacement, renewable energy generation and water conservation 
projects have all been incorporated into projects based on the 
limits of funding, the scope of the act, and return on 
investment analysis for the components of the investment.
    An example of a project taking full advantage of these 
greening opportunities is the modernization of the Edith Green 
Wendell-Wyatt building in Portland, OR. It will attain LEED 
platinum, the highest LEED rating available under the U.S. 
Green Building Council's LEED rating system. Using advanced 
design features, including radiant panels fenestration on 
different sides of the building to react differently to the way 
that the sun rises and sets in that particular climate, the 
structure will consume 60 percent less energy of a typical 
office building in that location and will incorporate a facade 
that is designed specifically for the location within the city. 
I might also add that the oldest planted roof in GSA's 
inventory is on the parking garage of that same building. It 
was planted in 1975 and has never leaked.
    Another example is the new Department of Homeland Security 
headquarters that we are building on the St. Elizabeth Campus 
in Washington, DC, the initial building, the new Coast Guard 
headquarters will have 5 acres of vegetative roof, narrow 
foreplates to maximize access to natural light, an innovative 
heating system that will be using combined heat and power for 
the facility and provide infrastructure support for the rest of 
the Department of Homeland Security in that campus, as well as 
being highly transit-accessible.
    We are leveraging our Recovery Act investments to turn our 
large, varied, and stable inventory of buildings into a proving 
ground for green building technologies, materials, and 
operating regimes in order to become one of the real estate 
industry's sources for data on the actual performance of 
systems in use, and we will be measuring that performance over 
a minimum of 3 years after complete operation and acceptance.
    We have worked to support and apply the most effective 
green building rating systems and standards, drawing on 
objective analysis performed by the Pacific Northwest National 
Laboratory, managed by the Department of Energy, GSA has 
identified LEED as the most effective rating standard for the 
Federal real property inventory to attain with a focus on the 
LEED new construction system and a growing focus on existing 
buildings. GSA requires that a LEED rating of gold or better be 
part of the design criteria for all new construction and major 
renovation projects, and the agency currently has 48 LEED-
certified owned and leased buildings, with approximately 150 
more working toward accreditation at the end of their project 
period.
    Eighteen of these projects to date have exceeded the 
minimum with LEED gold certifications, and one GSA-leased, the 
FBI regional office in Chicago, has achieved the LEED platinum 
rating for existing buildings, the first of those ratings ever 
to be given.
    The Energy Star system developed by EPA and the Department 
of Energy together and managed by them is also used by GSA and 
other Federal agencies. GSA today has over 100 buildings with 
Energy Star ratings, and we are expanding that into the leased 
inventory as well. We track environmentally preferable 
purchasing in compliance with Federal mandates.
    And I just want to conclude with a couple of challenges 
related to measuring green building performance outcomes.
    A key issue is increasing the number of advanced or smart 
meters in Federal buildings that track energy and water usage, 
which we are doing in every building that was touched by 
Recovery Act funds.
    Indoor environmental quality is particularly difficult to 
track and measure because it involves such a wide variety of 
pollutants as well as atmospheric conditions, all of which can 
interact with each other and impact occupants' health and 
productivity in many ways. Research to develop user-friendly 
indoor environmental quality metrics is needed.
    Another area that the Federal Government's ability to 
invest in projects with greatest environmental benefits would 
also be advanced is if the authority of agencies to make 
contracts for renewable energy were extended from the current 
limit in GSA's authorizing legislation of 10 years to 20 years, 
and this would allow a cost-effective creation of markets for 
renewable energy that is not there.
    And, finally, GSAhas long history of working cooperatively 
and effectively with Federal partners, and I will cover that in 
the longer testimony that is there. And with that, I think I 
should stop because I am over my time. Thank you very much.
    [The prepared statement of Mr. Kampschroer follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Ms. Watson. We will now proceed on to Ms. Hogan.

                  STATEMENT OF KATHLEEN HOGAN

    Ms. Hogan. Good morning, Chairman Watson, Ranking Member 
Bilbray, and members of the subcommittee. I do appreciate the 
opportunity to speak with you today about the Department of 
Energy's efforts with Federal green buildings.
    The Federal Government is becoming a leader in green 
building practices across its 3.2 billion square feet and its 
very large annual facility energy bill. And it is raising the 
bar through Executive Order 13514, that was signed in October 
2009. These efforts do make good sense by providing significant 
savings in taxpayer dollars, significant reductions in 
greenhouse gas emissions and, of course, creating jobs.
    Today I would like to update the subcommittee on Federal 
facility performance, share how the Federal agencies do 
collaborate to make buildings more energy efficient and 
sustainable, and to discuss some additions to the Federal 
toolkit that could help the government more readily achieve 
future statutory targets and others recently set by Executive 
Order 13514.
    The Department's Federal Energy Management Program [FEM], 
works with agencies to help them improve and to track their 
performance on key sustainability metrics that have been set 
forth by statute as well as Executive orders. Preliminary data 
for fiscal year 2009 are quite promising and show a number of 
things. They show a reduction in energy intensity of about 13 
percent relative to fiscal year 2003, surpassing the annual 
goal that had been set. The data also show an increase in 
renewable energy use, which now meets more than 4 percent of 
the government's electricity demand, also surpassing the fiscal 
year 2009 goal. The data show a decrease of more than 4 percent 
in water intensity relative to 2007, surpassing the fiscal year 
2009 goal. And the data show close to full compliance, 99 
percent, with metering the electricity use in the buildings 
where that is appropriate and show very high compliance with 
the design of new Federal buildings to be substantially more 
efficient than the typical building built to code.
    Further, we do expect to have strong results for fiscal 
year 2010, as investment and energy efficiency and renewable 
energy at Federal agencies did increase 84 percent in fiscal 
year 2009 over the prior year for really the highest year ever 
at about $1.7 billion.
    Now, success does take a team effort, and the Department of 
Energy does work closely with GSA, EPA, and other agencies. We 
are organized through Executive Order 13514 into a set of 
topical working groups with clear roles and responsibilities. 
Through these working groups, we can tap the communal knowledge 
and resources available across the entire Federal Government, 
and my written statement provides greater detail on those 
efforts.
    So as we look forward, and we know we have taken big 
strides, we also see that we have more room to drive down 
energy costs in Federal facilities and to meet future statutory 
and Executive order requirements. Energy efficiency does remain 
a top priority. There are literally hundreds of off-the-shelf 
technologies and products the government can use to save 
energy, technologies and products that are lifecycle cost-
effective. As facilities last decades, these energy efficient 
retrofits can reap rewards for years to come.
    Cool roofs are another important efficiency measure. Cool 
roofs reflect the sunlight and reduce heat gain, lower air 
conditioning bills for direct benefits, as well as improve air 
quality. Just this week, DOE released guidelines for selecting 
cool roofs for Federal agencies, and the Department's Secretary 
Chu sent a memo to departmental leadership instructing them to 
use cool roofs when building or replacing existing roofs.
    The Federal Government has a number of tools to overcome 
the higher initial costs of energy efficiency and renewable 
energy, which do frequently hinder investment. For example, as 
mentioned, energy saving performance contracts, which can 
provide investment capital to improve Federal facilities. This 
tool has provided around $2.3 billion in Federal facilities 
investment and helping us save more than $18 trillion BTUs of 
energy annually, enough energy to power a city slightly larger 
than Kansas City, Missouri.
    With a few additional tools, we could help deploy energy 
efficiency and renewable energy at greater scale, which is 
necessary to meet our future targets. For example, as just 
mentioned, we cannot currently use power purchase agreements 
broadly across the Federal Government. Except for the Defense 
Department and the Western Area Power Administration, the 
government can only enter 10-year agreements with renewable 
energy producers. Extending that renewable energy power 
purchase authority to 20 or 25 years for all the agencies as 
well as changing the way these projects are scored in the 
budget process could significantly increase renewable energy 
use across the government.
    We also need to look at ways for Federal agencies to 
reinvest savings to support additional retrofits so we can save 
even more money rather than reducing the agency operating 
budgets to match the reduced use of energy and water.
    And, last, if the definition of renewable energy were 
changed to include renewable thermal energy that displaces our 
need for electricity, the agencies would have a much wider set 
of options for low-cost renewable energy.
    So I appreciate the opportunity to be here today and to 
share this update, and I will be pleased to answer any 
questions you have. Thank you.
    [The prepared statement of Ms. Hogan follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Ms. Watson. And we thank you.
    You may proceed, Mr. Bushta.

                   STATEMENT OF DENNIS BUSHTA

    Mr. Bushta. Chairman Watson, Ranking Member Bilbray, and 
members of the subcommittee, thank you for providing me with 
the opportunity to appear before you today to discuss the U.S. 
Environmental Protection Agency's work, success stories, and 
challenges associated with green building practices and 
improving environmental performance in Federal facilities.
    EPA occupies nearly 11 million square feet of office, 
support, and laboratory space across the country. The agency 
relies upon the General Services Administration to acquire 
virtually all of its office and nonlaboratory facilities.
    The agency is currently meeting or exceeding the green 
building requirements found in the Energy Independence and 
Security Act of 2007 and Executive Order 13514, and considers 
itself to be a leader in the Federal Government in the 
renovation and construction of green buildings in both 
facilities owned by EPA and those provided through GSA. We have 
worked very hard to acquire the U.S. Green Building Council's 
leadership in energy and environmental design, LEED, new 
construction certification for buildings we have constructed or 
are leasing through GSA and private property owners. As of last 
December, EPA had gold or silver certification for over 186,000 
square feet of property that we own and over 1 million square 
feet of rented property.
    EPA has reduced energy at its reporting facilities by over 
18 percent since 2003. Since September 2006, the agency has 
acquired delivered green power and renewable energy 
certificates equivalent to 100 percent of its conventional 
electricity use.
    In addition, the agency has applied a variety of innovative 
approaches to reduce water use by almost 11 percent since 2007. 
Both EPA and GSA facilities contain numerous green roofs, large 
and small pervious pavement parking lots, rain gardens, and 
systems to harvest and reuse rainwater. EPA also makes 
extensive use of recycled materials in its construction 
projects.
    Energy efficiency is an essential component of green 
buildings. Several of our offices include EPA's Region 8 
Building in Denver, Colorado, which has earned the Energy Star 
rating, further highlighting the significance that EPA and GSA 
place on achieving top energy performance.
    The agency currently has systems in place to collect and 
measure data for energy efficiency, water conservation, 
construction waste recycling, and scope one and two greenhouse 
gas facility emissions. And, throughout the Federal Government, 
agencies are working together to improve systems for collecting 
information related to employee commuting and waste diversion 
rates.
    The EPA works within its appropriation to implement the 
many dimensions of our green building program. We are currently 
exploring ways to fund upgrading old mechanical systems in 4 
million square feet of our laboratories to improve their energy 
efficiency. The agency is also committed to finding ways to 
ensure that building operators are available and trained to 
oversee and maintain increasingly more complex green building 
equipment.
    EPA believes that Congress and the executive branch play a 
significant role in promoting the design and use of green 
buildings through the passage of the current Federal laws and 
Executive orders which set challenging energy and water 
reduction goals for Federal facilities. These current 
requirements have and will continue to make a meaningful impact 
in helping EPA and other agencies achieve significant energy 
reductions and improve their environmental performance.
    The EPA has shared a very positive experience in 
collaborating on numerous projects with other Federal agencies 
in promoting green facilities. The Interagency Energy Task 
Force and the Interagency Sustainability Working Group, 
coordinated by the Department of Energy and GSA, have provided 
a critical service in assembling and sharing information about 
best practices, and GSA has provided a testing ground for new 
technologies in design approaches.
    Several online energy management tracking and assessment 
tools that EPA developed include portfolio manager and target 
finder. An estimated 20 percent of the commercial building 
market representing 15 billion square feet uses portfolio 
manager to track energy and water usage, assess the performance 
of buildings, set goals, and make reductions across building 
portfolios.
    Some of EPA's greatest success in promoting green buildings 
and technologies can be found in our numerous voluntary 
partnership and product labeling, programs including Energy 
Star, Water Sense, and Climate Leaders, just to name several. 
By following the Energy Star guidelines for energy management, 
buildings can achieve on average a 35 percent reduction in 
greenhouse gas emissions and realize energy savings.
    The EPA has also issued storm water guidance to provide 
information about permeable pavement and roofing options that 
address environmental issues associated with water runoff. EPA 
strongly endorses the many benefits associated with green 
buildings and looks forward to continuing our work with the 
subcommittee, our partners throughout other Federal agencies, 
and the public to ensure an economically and healthier country.
    Thank you again for inviting me to testify, and I look 
forward to answering your questions.
    [The prepared statement of Mr. Bushta follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Ms. Watson. Thank you so much.
    I would first like to make the statement, and I am sure 
that all of our Members would concur, that we are struck by the 
fact that the Federal Government is the Nation's largest 
consumer and greenhouse gas emitter. And I am particularly 
struck by the fact that our Nation's buildings account for 40 
percent of our primary energy use.
    Obviously, the Federal Government can and must play a 
leading role in providing guidance on how the buildings must be 
constructed in the future to maximize the goals of energy 
efficiency and environmental sustainability, and I appreciate 
the testimony.
    I think that you have addressed a lot of the initial areas 
of concern that I have. I will call on other Members in just a 
second, but I would like to start with Mr. Kampschroer and say, 
is the GSA committed to eventually making all of its buildings 
LEED certified? And, if so, how long will this take? And at 
what cost to government?
    Mr. Kampschroer. Today, we require every major renovation 
and new construction project and major lease construction 
project to achieve a LEED gold rating. That is the new 
buildings.
    Ms. Watson. So most of it is prospective.
    Mr. Kampschroer. Correct. And the existing buildings are a 
large component of Executive Order 13514 as well as some 
previous Executive orders. The current goal is to have a 
minimum of 15 percent of our inventory certified by 2015. We 
are actually looking at accelerating that. We will not have the 
schedule for acceleration probably for several months yet, but 
we believe that we can do more in the short run with existing 
buildings, especially based on the work that we are doing with 
the Environmental Protection Agency to use the Energy Star 
portfolio manager as a screening. So what we will be doing is 
looking at how many of the buildings today are capable--but we 
just don't happen to know it--of achieving such a rating.
    We currently are on track to meet that 15 percent goal. We 
do not expect that the cost of achieving those ratings will be 
an incremental change to our budget request because we have 
seen that, as we move these buildings to greater energy 
performance, that those kinds of improvements that we make to 
achieve the ratings actually pay for themselves in relatively 
short order.
    In yesterday's meeting that was hosted by the White House 
on related topics of high performance green buildings, Ken 
Hubbard from the Hines Corp. stated that his company, when they 
take over a new building from another owner, can typically 
reduce the energy consumption by 20 percent solely through the 
imposition of better management practices and better 
measurement metrics combined with their preexisting high 
quality labor force. So we are hoping to emulate some of those 
practices in our existing buildings and accelerate that. And I 
would ask that, as we get that plan closer, that we could 
submit it to you.
    Ms. Watson. Great.
    Ms. Hogan, would you like to comment?
    Ms. Hogan. We at the Department of Energy are also looking 
to see what we can do with our existing buildings. As you just 
heard, there are important requirements for the new buildings 
which we are of course on target to meet. So a big part of the 
question is how you address the existing building stock.
    What we are doing somewhat similarly to GSA is undertaking 
sort of an information collection effort to really better 
understand the state of these buildings, figure out what we can 
do, and implementing a number of initiatives to see how we can 
improve them, you know, quickly and in a way that will get the 
savings that is there to be gotten, as well as to train the 
people that are out there that need to be trained to maintain 
that continued improvement. So really investing in the 
infrastructure so we can get these low-cost savings.
    Ms. Watson. And Mr. Bushta, would you like to comment?
    Mr. Bushta. Yes. Thank you.
    EPA's real Federal property inventory primarily consists of 
laboratories, which tend to be a bit more energy intensive, 
environmentally intensive, and a bit more complex. And because 
of that inventory, we are able to, or we have applied a number 
of different approaches, first starting with commissioning and 
recommissioning of the mechanical systems, updating 
technologies, and making some renovations.
    And on the new construction and major construction, we 
believe we are in line with meeting those requirements. In some 
of our older structures, we are currently working on upgrading 
those and plan to hit those targets in a timely fashion.
    Ms. Watson. Thank you.
    I would like now to yield to the ranking member, Mr. 
Bilbray.
    Mr. Bilbray. Thank you very much, Madam Chair.
    And Madam Chair, I know I was pointing out some of the 
things that we are not doing. We talk a lot about what we are 
not doing.
    I would like to point out an example that today there is 
155 applications for siting renewable energy facilities on 
Bureau of Land Management property in California alone, 155. 
Been there for years. Not one permit has been issued. It is 
easier to say no than it is to try to move forward because 
there is risk.
    I would like to sort of back up and start where it all 
starts, and that is when energy enters our Federal facilities. 
Where is the electricity coming from that is lighting these 
light bulbs?
    Mr. Kampschroer. It is coming from the PJM grid with a 
series of different production facilities contracted for by 
PEPCO, generally speaking.
    Mr. Bilbray. And what are their major energy sources?
    Mr. Kampschroer. PEPCO I believe has a portfolio that is 
predominantly coal-fired plants but with some renewable energy 
mixed in there. We can certainly look up that information as it 
is recorded in the Energy Information Agency of the Department 
of Energy.
    Mr. Bilbray. Well, let me tell you, as a Californian, when 
I came here, I was appalled to see the coal plants here. In 
California, you go to prison for burning coal. OK?
    And for the Federal Government to be so punitive at those 
of us in California while we struggle to clean up our 
environment, then to come here and see what appears to be a 
total lack of standards really concerned me about we, 
ourselves, at the Federal Government.
    Now I know one thing about energy, the ability to wheel. 
Are you here today saying that this is the cleanest portfolio 
that we can legally purchase, that we are forced in the Capitol 
of the United States, to have to buy dirty coal energy to 
generate our light bulbs? Have you had anybody look at the 
possibility of wheeling and specifically purchasing zero-
emission electricity?
    Mr. Kampschroer. Today, GSA purchases zero emission 
electricity at about 10 percent of its total electricity 
purchases across the board, and we have committed to reach 30 
percent within--by year 2020.
    Mr. Bilbray. Why 10 percent? Why don't we tell--basically 
say, look, we are in the market, we will go buy zero emission 
electricity and wheel it into the region? Why--because are we 
worried about the price of buying clean energy? Is that the 
problem? I only say this because I know in California, and I 
think that Madam Chair will know that, consumers have the 
ability to go shop, purchase clean technology, even if it is 
paid at a premium. But that is a consumer decision that 
individuals make. We are not allowed to make that? We can't 
make that as the Federal Government sitting in the Capitol of 
the United States?
    Mr. Kampschroer. I am not aware of any law that would 
prevent us from making that decision. I am certain that there 
would be a cost impact of that decision.
    Mr. Bilbray. I wonder if the cost impact would be as much 
as $90,000 or whatever. Frankly, we see the history that we try 
to make this effort of playing the offset game, trying to play, 
you know, do a smoke-and-mirror game rather than saying 
specifically, we want to buy it from these locations, and we 
will not buy--the Federal Government will not buy coal, 
unless--basically anything that has that emissions, especially 
when the fact that we have facilities that are zero-emission 
generators. And I would like to open that up for a 
conversation.
    Think about what we are doing here. We ought to do 
conservation. It is not just environmentally responsible; it is 
economically responsible.
    But if you have the ability to make sure that you have zero 
greenhouse emissions caused by your electricity use, when do we 
stand up and say, we are willing to do the right thing and set 
an example for the rest of the country? I guess the argument 
is, how do I face off with the people in Ohio and tell them 
they have to do without if those of us in Washington, DC, won't 
do without?
    Go for it, EPA.
    Ms. Hogan. I think you are asking some very important 
questions. I think what the Federal Government is doing is 
getting organized to make important progress in all of the 
areas that you are mentioning. And I think what is important 
when you think about renewable energy, when you think about 
greenhouse gas emissions is you put together a strategy from 
how to get from where you are today to where you need to get 
tomorrow.
    Mr. Bilbray. Where are we today? What is the total 
emissions of the electricity that we are using on Capitol Hill 
today? What is the total emissions annually of the electricity 
we are using today on this Hill?
    Ms. Hogan. We can get you the numbers of what the 
greenhouse gas inventory is for the Federal Government. That is 
what the agencies are working to put together as a result of 
Executive order that we have been talking about. As part of 
that Executive order, each agency has been asked to put 
together an aggressive greenhouse gas reduction target and then 
put together a strategy for how to meet that target.
    For the Department of Energy, we have put together a goal 
of reducing our greenhouse gas emissions by 28 percent by the 
year 2020. And to do that, we will be investing more in 
renewable energy. We will be doing more with energy efficiency, 
and we will be addressing our fleet issues, and we will be 
doing it across that full portfolio in as cost-effective a 
means as possible.
    Mr. Bilbray. Thank you, Madam Chair.
    And, Madam Chair, I will just say, I grew up working on 
pollution problems, and the one thing I realize it is a lot 
easier not to dump the sewage into the environment than it is 
to try to clean it up later. So I would like us to go be 
proactive and eliminate the emissions rather than mitigate 
them. Thank you.
    Ms. Watson. I think that you are addressing one of the 
missions of this subcommittee. And obviously, we are going to 
be holding more hearings, looking at the reports that we get 
from your various agencies.
    It is important that we have this discussion, and we 
definitely will allow time to continue this discussion until we 
hit on something.
    I can concur with our distinguished ranking member. I also 
am from California. I worked in Sacramento, and I remember 
flying down into this gunky kind of airspace.
    Do you remember that?
    And so I remind, Former Governor Jerry Brown that he talked 
about the environment before most people could spell it. That 
was in the 1970's. And so we took it on. And now I happily fly 
into my city of Los Angeles, and I can see the water. But I 
tell you, it was really bad. So we are going to continue.
    Mr. Bilbray. For the record, L.A. basin has twice as many 
people and twice as clean air.
    Ms. Watson. We have worked on it over the years.
    I will now yield to Mr. Quigley.
    Mr. Quigley. Thank you, Madam Chairman. I appreciate this 
meeting and the panelists.
    My thoughts and questions are a variation of what the 
ranking member is talking about in the building that is far 
from green, to talk about these issues, and parked in front of 
this meeting and every committee meeting we have in this 
building, and the Energy Committee meets in this building as 
well, are SUVs the size of Detroit. I don't know why people in 
this town feel the need that the only way they can get around 
is in a vehicle that large, with a perfectly good subway 
system. Several of us ride bikes.
    But I think the point the ranking member was getting to is 
it is up to us. And I am there as the sponsor of a LEED-
certified building ordinance which passed in Cook County, the 
third largest in the country. We actually have new courthouses 
that are being built that are LEED certified. It is up to us.
    What we learned there was we were creating markets. 
Government is such a large purchaser, not just the Federal, but 
State and local. We can change things. Which gets to the point 
the ranking member is, we have to look beyond the point we are 
trying to do here.
    The variation of that I would like you to comment on, if 
you would, is the standards you are talking about. When we 
started, we were just happy to pass a bill. We thought any 
standards are fine. Now we have heard of concerns perhaps 
beyond that with Energy Star standards as it relates to the 
consumer level at least, but also occasionally with LEED.
    Who is deciding where we can go? As technology changes, as 
our needs change, as the needs change to do this, you know, is 
LEED where we need to be? Are there others that we are looking 
at? Are we pushing the envelope in other manners?
    Mr. Kampschroder. Thank you for that question. At the 
moment, I think LEED is the--I know LEED is the best rating 
system that is in the market in the United States today. We did 
a study in 2006 with Pacific Northwest National Laboratories to 
ascertain that. The Energy Independence and Security Act asks 
us to repeat that study once every 5 years, and we will be 
commencing the follow on study next year.
    It is not, on the other hand, a standard. The most recent 
standard which GSA and the Department of Energy and EPA have 
all been working on, together with a variety of other public-
State-private entities, is the ASHRAE Standard 189.1 for 
sustainable buildings. It is a comprehensive standard language, 
standard for green buildings. And it, for example, the law 
currently requires us to be 30 percent better than the ASHRAE 
Energy Code, and this particular green building standard 
achieves that within the code standard language.
    If I were predicting, I would say that the decision we make 
5 years from now may be different. I would expect the standards 
to increase. I know that the Energy Code itself and the ASHRAE 
Committee is getting more stringent as technology and adoption 
of that technology has gotten greater throughout the industry, 
and I would expect the subsequent revisions of the Energy Code 
to become much, much closer to what the government is trying to 
do today.
    Mr. Bushta. I would agree with GSA. However, I think there 
are a number of folks that feel that while LEED provides a good 
application, there is a considerable variability in the LEED 
approach, which as one is using as the point system, that two 
buildings that may receive the same LEED rating may have a 
considerable variability, for example, in energy consumption, 
so the focus on specific applications may not be the same. So 
there is a considerable interest, and EPA would support that in 
raising the bar on some of those applications. I think that is 
going to happen over time. We would agree that LEED is a very 
usable across-the-board application at this time and one that 
we should focus on.
    Ms. Hogan. And I think these are the types of discussions 
that the agencies do engage in as part of their interagency 
working groups, and as a result of some of these discussions, 
what you will see reflected in the notice of proposed 
rulemaking that the Department of Energy has out on 
sustainability principles is sort of a framework for how to 
approach green rating programs.
    What you will see in that notice of proposed rulemaking is 
that we are not selecting one green building rating system. We 
are putting forth a set of criteria that we think a green 
building system ought to meet to be a green building 
certification system the Federal Government would use.
    So what you want are performance-based metrics, so that you 
can sort of measure and strive for high performance. You also 
want there to be a strong verification system so that when you 
get a certification for the building's design, that down the 
road you go back and check to make sure the building was 
designed to meet those levels and sort of maintains that level 
of performance.
    But we have taken that path. That notice of proposed 
rulemaking is currently out for public comment, and we are 
holding a public meeting I believe next week, and we will be 
happy to come back and share what the outcome of that process 
is.
    Mr. Quigley. Thank you.
    Ms. Watson. We will now go to Mr. Connolly.
    Mr. Connolly. Thank you, Madam Chairwoman.
    Let me begin first of all by saying I concur with our 
friend from San Diego, the ranking member, on the need to shift 
the Federal energy supply from coal to renewable sources. That 
is why I and so many others in this Congress supported the 
energy legislation we passed in the House last year which 
creates alternative and new and renewable energy markets. 
Frankly, without that kind of legislative framework, we will be 
stuck where we are today. So it is a laudable goal, but we all 
got to be willing to do the tough lifting to make sure that we 
can reach that goal.
    Let me ask Mr. Kampschroder, does GSA have different 
standards, parking standards, for Federal facilities, transit 
versus nontransit?
    Mr. Kampschroder. We do not today. However, the Executive 
order has asked us to work with other Federal agencies to 
develop different policies than exist today that are around 
transit-oriented development in siting of Federal locations. 
The initial recommendations of the working group have now been 
made public, and the next step is to make them actual.
    So today our parking policies are fairly uniform without 
regard to the existence of transportation. However, our 
procurements take the location next to leases and new 
buildings, requiring where they exist, that we locate those 
facilities near public transit, whether it is bus or subject 
wail or the like.
    Mr. Connolly. If the chair does not object, I would ask 
that the subcommittee formally request the GSA respond back to 
us within the next month on what steps it is taking formally to 
change that policy, because it makes no sense whatsoever to 
have one uniform standard of parking when you may have a 
building in the middle of a wheat field in Kansas versus a 
building in a very congested urban area next to a transit 
station. Furthermore, frankly, it pits the Federal Government, 
not intentionally, against the intentions of the localities.
    My locality, for example, we have moved Heaven and Earth to 
get rail to Dulles. We want to redevelop the Dulles Corridor as 
a transit-oriented development corridor. That means we want to 
change parking requirements on normal office buildings, so that 
we are encouraging people to get out of the single occupancy 
vehicles and to use alternative methods of transportation, 
transit, to wit.
    We need the Federal Government as a partner if it has 
facilities in that corridor, not as something that stands alone 
and has its own uniform policies irrespective of those changes.
    So if it helps a little bit as a prod, Madam Chairwoman, I 
would make that request and urge you to on our behalf make that 
request.
    Ms. Watson. Without objection, that will be the order.
    Mr. Connolly. I thank the chairwoman so much.
    What about transportation demand management plans, TDMs? 
Does the GSA have such programs for its Federal facilities? 
And, again, does it differentiate between congested urban and 
suburban and other?
    Mr. Kampschroder. Our experience with those is principally 
in the Washington, DC, area, where we have used for them. For 
example, we did a rather extensive transit study at the 
commencement of the development of the White Oak campus in 
suburban Maryland to make sure that we did not overburden the 
existing road system.
    We have provided a lot of--in that context we have provided 
encouragement to people through transit subsidies. For example, 
GSA today provides transit subsidies for nearly half of its 
employees around the country, a lot of those in Washington, DC. 
There are a number of programs that are very community-specific 
to not just GSA employees but all Federal employees in finding 
and using ride sharing and other methods of reducing the 
transportation impact of the facilities.
    The Executive order also directs us to go further than we 
have in the past in ensuring that in all of our planning, that 
we not only consult with, but plan together with local planning 
entities. So the States and the counties and the localities 
with planning goals and zoning rules, and so on, are 
reemphasized in this Executive order, that it is an important 
part of what we should be doing as good citizens of the 
neighborhoods within which we live.
    Mr. Connolly. You know, our colleague from San Diego began 
by saying he was cynical about the gap between goals and 
reality, and one can understand. But I guess I see the glass as 
half full, not half empty. I think the Federal Government has 
an incredible opportunity here to actually go from being what 
it is today, or has been in the past, to actually being the 
cutting edge model.
    Let me just say, nothing can be more exciting to me than 
actually see us, the Federal Government, leading the way in 
green certification, in predevelopment hydrology standards, in 
saving $6 billion a year in energy costs. If we are committed 
to the goal of energy independence, we have to take the lead.
    So I applaud what you are doing and I hope you will be 
seized with this mission, because here is an opportunity really 
for us to strike a blow for energy independence and for the 
environment at the same time.
    Thank you, Madam Chairwoman.
    Ms. Watson. Thank you very much.
    I would like to thank this panel for your information 
provided to us. Know that we will expect to hear from you as 
mentioned to you. I would like to say to all of you, we 
appreciate the testimony you have raised. You have raised 
issues that will guide this subcommittee in the very near 
future. As I said, we will have several hearings. We are just 
beginning this debate.
    So I will now adjourn the first panel and ask for Panel II. 
Thank you. You may take your seats.
    I would now like to take a moment to introduce our second 
panel of distinguished members. First, Mr. Henry Green is the 
president of the National Institute of Building Sciences. Prior 
to this appointment, Mr. Green served as executive director of 
the Bureau of Construction Code in the Michigan Department of 
Labor for more than 19 years. He was a founding member of the 
International Code Council Board of Directors where he served 
as president.
    Ms. Helen Vaughan is the policy director for high 
performance green buildings in the Environmental and Energy 
Study Institute, where she leads the High Performance Green 
Building Initiative. She has authored or coauthored several 
articles, including Beyond Green: High Performance Buildings, 
which was part of the fall 2009 edition of the MIT press 
journal called Innovations.
    Ms. Lynn Bellenger is president of the American Society of 
Heating, Refrigeration, and Air-Conditioning Engineers. Ms. 
Bellenger is a partner with Pathfinders Engineers and 
Architects, LLP, in Rochester, NY, and is ASHRAE's first female 
president in the society's 116 year history.
    Mr. Bertrand is vice president of Delphi, where he also 
serves as president of Delphi's Automotive Holdings Group and 
Delphi Thermal Systems.
    Thank you so much for being here this morning. As you know, 
it is required of us to ask you to stand and to take the oath.
    [Witnesses sworn.]
    Ms. Watson. Let the record reflect that the witnesses 
answered in the affirmative.
    I would like now to proceed first to Mr. Henry Green for 
your testimony.

  STATEMENTS OF HENRY GREEN, PRESIDENT, NATIONAL INSTITUTE OF 
    BUILDING SCIENCES; ELLEN VAUGHAN, POLICY DIRECTOR, HIGH 
  PERFORMANCE GREEN BUILDINGS, ENVIRONMENTAL AND ENERGY STUDY 
  INSTITUTE; LYNN BELLENGER, PRESIDENT, AMERICAN SOCIETY FOR 
    HEATING, REFRIGERATION, AND AIR-CONDITIONING ENGINEERS 
     [ASHRAE]; AND JAMES BERTRAND, VICE PRESIDENT, DELPHI, 
PRESIDENT, DELPHI AUTOMOTIVE HOLDINGS GROUP AND DELPHI THERMAL 
                            SYSTEMS

                    STATEMENT OF HENRY GREEN

    Mr. Green. Thank you, Chairwoman Watson and Ranking Member 
Bilbray, and members of this committee, for this opportunity to 
speak to you on high performance green buildings within the 
Federal Government.
    Congress established the National Institute of Building 
Sciences in 1974 as an authoritative national source to make 
findings and to advise the public----
    Ms. Watson. Excuse me, would you check your mic, please.
    Mr. Green. There we go. I apologize. Someone left the sign 
that says it is on. OK.
    Starting over I guess, thank you very much this morning for 
allowing me to come in and testify on the state of high 
performance in green buildings in the Federal sector.
    Congress established the National Institute of Building 
Sciences in 1974 as an authoritative national source to make 
findings and to advise the public and private sector on the use 
of building sciences and technology. The Institute's enabling 
legislation calls upon Federal agencies to work with the 
Institute when appropriate. Through this engagement with public 
and private sectors, the Institute provides an unbiased focus 
on building science.
    The Energy Policy Act of 2005 called for the establishment 
of a high performance building council within the Institute to 
look at the diversity of codes and standards and to determine 
the need for implementation of high performance buildings. The 
Council, with 70-plus private sector organizations, public 
agencies, produced a report in 2008 based on the eight 
attributes of a high performance building. These are 
sustainability, cost effectiveness, accessibility, 
productivity, historic preservation, aesthetics, functionality, 
and safety and security. These attributes reflects the 
definition of high performance building and high performance 
green building within the Energy Independence and Security Act 
of 2007. The definition also includes sustainability, or green, 
as one of the aspects of high performance buildings.
    Federal agencies also have requirements that relate to high 
performance buildings and attributes beyond energy, water, and 
sustainability. A sampling of such laws and Executive orders 
includes the Americans With Disabilities Act, the National 
Historic Preservation Act, Public Buildings Act, National 
Environmental Policy Act, Executive Orders 13006, historic 
properties, 12977, security standards, and 12941 and 12699 on 
seismic safety.
    With numerous requirements impacting how Federal buildings 
are designed, constructed and maintained, achieving high 
performance is challenging, particularly given the complex 
interactions among these and other requirements.
    As the High Performance Council reported, common metrics 
are needed to provide consistent comparable measurements for 
the individual attributes and to understand and address the 
interactions across attributes. No single organization or 
profession has the knowledge or expertise to fully integrate 
the attributes into a clear path to high performance. But the 
High Performance Building Council with its broad-based 
membership can facilitate the coordination and cooperation 
needed to achieve delivery of high performance buildings. 
However, since the completion of the initial report, resources 
have not been available to continue this effort.
    Once the metrics are identified and performance levels to 
reach high performance must be agreed upon, the underlying 
standards as well as research and development in both the 
societal and building sciences must be supported.
    Agencies have significant resident expertise on the 
individual aspects of high performance, but there is no single 
focal point for integration. The lack of integration should not 
be attributed to the agencies themselves, but to the 
fundamentals of the agency structure. Agencies generally focus 
on their key missions.
    Achieving high performance will require an integrated 
design, construction and operation process that engages key 
professionals early on and throughout design and construction. 
The current budget process with separate capital and 
operational budgets is not conducive to this approach.
    The procurement process also tends to hamper collaboration. 
Most contractors and subcontractors are engaged after the 
initial building design is completed, so components and systems 
addressing high performance attributes have been selected 
without their input and expertise.
    Some agencies have identified best practices and 
technologies and contribute to achieving high performance. 
These should also be shared and expanded. The whole building 
design guide, supported by 11 Federal agencies, can serve as a 
repository for such case studies and validations.
    Several concepts will assist in achieving Federal high 
performance buildings; education and training of Federal 
personnel engaged in the procurement, design, construction and 
operation of Federal buildings; building information modeling 
to facilitate a holistic approach to building design, 
construction and operation, and indeed construction through the 
building's life cycle; total building commissioning upon 
completion of the building, retro-commissioning and periodic 
recommissioning; utilization of integrated processes resulting 
in holistic and efficient approaches to meeting the numerous 
requirements placed on Federal buildings.
    The Department of Homeland Security's high performance 
based design project within the Science and Technology 
Infrastructure and Geophysical Division illustrates how the 
range of attributes can be used in developing high performance 
buildings. This project integrates blast protection, chemical, 
biological and radiological protection, along with energy, 
sustainability, durability, air and water protection, and other 
major building requirements.
    With an integrated approach, high performance buildings can 
be achieved. The structure to achieve this goal is partially in 
place, but there needs to be a sustained effort to bring about 
the collaboration and consistency essential to bring high 
performance Federal buildings to fruition.
    Thank you very much for this opportunity, and I look 
forward to your questions.
    [The prepared statement of Mr. Green follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. Watson. Thank you.
    Ms. Vaughan.

                   STATEMENT OF ELLEN VAUGHAN

    Ms. Vaughan. Good morning, and thank you, Chairwoman 
Watson, Ranking Member Bilbray, members of the subcommittee and 
staff, for this opportunity to present our views on Federal 
green building progress and practices.
    I have a written statement for the record that I would like 
to summarize in the slides that I hope you can see. My name is 
Ellen Vaughan, and I lead the Buildings Initiative at the 
Environmental and Energy Study Institute. It is a nonprofit 
policy education group here in Washington.
    High performance green buildings are an essential part of 
EESI's mission to advance sustainable solutions to climate 
change and other critical issues.
    Slide two shows what we mean by a high performance 
building. It is energy efficient at its core. It is green. It 
is energy efficient, green, and maybe at the VA hospital that 
must deliver high performance in accessibility for disabled 
vets, lots of natural light and good indoor air quality to 
promote healing and well-being, and maybe it is in an historic 
building that must be preserved.
    Henry mentioned seismic standards. Certainly a green 
building destroyed by an earthquake is not sustainable.
    So all these things are achievable, but it requires a 
holistic approach to planning, designing, and retrofitting. If 
these goals were considered separately as an afterthought, or 
not at all, they would not likely be achieved.
    Slide three shows the evolution of the legal framework and 
resources for creating energy efficient green high performance 
buildings in the public and private sectors. We are grateful to 
this committee for your leadership in putting the definition of 
high performance buildings in the 2007 energy bill. This lays 
the foundation for the important work ahead in achieving high 
performance buildings.
    Slide four discusses the shades of green again in that 
Federal agencies have been leading in every shade of green for 
years, and they can't continue to break the mold. A GSA border 
station for port of entry, for example, can it provide superior 
indoor air quality despite the exhaust from idling vehicles; 
can it provide lots of view glass; can it be energy efficient; 
can it protect against security threats, and come in on budget? 
Yes. GSA has accomplished this by setting these and other 
performance goals at the beginning and throughout the project 
with each member of the team.
    In slide five, this shows further evolution in Federal 
building performance, and this requires governmentwide 
performance targets and standards, consistent guidance, 
holistic planning, life cycle budgeting, a nonlinear integrated 
approach to design, and simple design tools. New capabilities 
for training with 3-D virtual buildings make this possible like 
never before.
    Slide six, Congress has shown leadership by requiring 
performance targets such as reduced energy consumption and the 
statutory authority for high performance buildings. Congress 
can further enable Federal buildings to lead by example by 
funding training, standards development, R&D, testing, 
demonstration and information dissemination that is focused on 
high performance.
    Finally, in slide seven, Federal agencies can rise to the 
challenge with the right resources. They already are making 
amazing progress in spite of stacks of requirements and FEMP's 
elimination of whole building training courses. We question who 
the ombudsman is or the coordinator for high performance. Is it 
FEMP or is it GSA?
    DOE's proposed rulemaking on sustainable design is a great 
thing to see. It folds in the Executive order and the MOU on 
sustainable building principles. So why doesn't it address 
fossil fuel reduction requirements at the same time? They are 
connected. Renewable energy supply needs must be determined. 
Federal procurement will help drive the market for renewable 
energy production in this country.
    International high performance building standards such as 
German Passive House and Swiss Menergy should be studied and 
utilized. Federal procurement of high performance green 
materials, innovative technologies, and best practices and 
design services will stimulate the market for better buildings 
nationwide.
    What green building pioneers have started, Federal agencies 
can propel toward a revolution in the building industry like we 
have seen in electronics and communications.
    Thank you, and I am happy to answer any questions.
    [The prepared statement of Ms. Vaughan follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. Watson. Thank you.
    Ms. Bellenger.

                  STATEMENT OF LYNN BELLENGER

    Ms. Bellenger. Chairwoman Watson, Ranking Member Bilbray, 
and members of the subcommittee, thank you for the opportunity 
to speak to you today about standards and opportunities for the 
Federal Government to optimize building efficiency.
    My name is Lynn Bellenger and I am president of ASHRAE, an 
international engineering society of over 52,000 members in 
more than 140 countries. Our members represent the breadth of 
professionals involved in the building environment, from 
consulting engineers and architects to manufacturers' 
representatives and academics.
    ASHRAE fulfills its mission to serve humanity and promote a 
sustainable world through research, standards writing, 
publishing, and continuing education. We are the acknowledged 
experts on energy and buildings and indoor environmental 
quality.
    The purpose of today's hearing is to examine the Federal 
Government's role in greening buildings. ASHRAE has long 
partnered with the Federal Government on this very issue, 
working to reduce energy waste while developing and 
consistently improving energy efficiency standards and advanced 
design guidance.
    In the 1970's, during this Nation's first modern energy 
crisis, the Federal Government approached ASHRAE to develop a 
standard to address the energy use by buildings. This standard 
became ASHRAE Standard 90.1, which now serves as a Federal 
building standard.
    Through the High Performance Building Congressional Caucus 
Coalition, ASHRAE has taken the lead role in raising the 
awareness of high performance buildings in Congress. Over the 
past 2 years, the coalition has held 27 briefings for Federal 
policymakers on a wide range of building-related issues.
    My presidential theme is modeling a sustainable world. 
Building modeling represents one of the most powerful tools for 
optimizing building performance, and to exploit the full 
capability of modeling tools, we must transform our design 
approach from a sequential process where one discipline 
completes its work and hands off the design to the next, to an 
integrated building design process, where all of the 
disciplines involved in the building design and construction 
work as a team from the beginning to evaluate options and 
optimize building design.
    Our biggest challenge is implementing integrated design in 
daily practice. It is going to require a cultural shift in our 
industry to transform the design process, and it is a shift 
that has to occur if we are going to reach our goal of net zero 
energy buildings. To accelerate this cultural shift, we 
recommend creating a new demonstration program with selected 
geographically diverse Federal buildings.
    Earlier this year, in partnership with USGBC and the 
Illuminating Engineering Society, ASHRAE published Standard 
189.1, the first code-intended commercial green building 
standard in the United States. Standard 189.1 serves as a 
compliance path of the International Green Construction Code 
published by the International Code Council.
    Standard 189.1 is a game changer in building standards, and 
ASHRAE recommends authorizing a pilot program with a select 
group of geographically diverse Federal buildings to examine 
the effects of requiring all new Federal buildings to meet the 
IGCC by 2020, and include ASHRAE Standard 189.1 as a compliance 
path. This will help the Federal Government meet the objectives 
of Executive Order 13514 of ensuring that beginning in 2020 all 
new Federal buildings are designed to achieve zero net energy 
by 2030.
    In addition to Standards 90.1 and 189.1, ASHRAE has 
designed tools and initiatives targeted for enhanced building 
performance, including certification programs and advanced 
energies design guides. ASHRAE also has developed a building 
energy labeling program which clearly shows tenants, building 
owners and others the difference between as-designed and in-
operation building energy used and includes an energy 
assessment with recommendations for increasing energy 
efficiency.
    Congress can help close the gap between the designed and 
operational energy use of Federal buildings by requiring all 
new and existing Federal buildings to put in place within 3 
years an energy performance information program that identifies 
both designed and in-operation performance. Understanding where 
energy is used in a building is the first step in reducing 
energy consumption.
    In closing, significant progress has been made over the 
years in the Federal, commercial, and residential sectors, and 
we are poised to embark on a new era of energy efficiency and 
taxpayer dollar stewardship that will lead us to net zero 
energy buildings. Much work remains to achieve that goal, and 
as a national and world leader in developing building 
standards, ASHRAE looks forward to opportunities for working 
with Congress and the executive agencies as we all move toward 
a more sustainable tomorrow.
    Thank you again for the opportunity to address this 
subcommittee, and feel free to contact me or our D.C. office if 
you have any additional questions.
    [The prepared statement of Ms. Bellenger follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. Watson. Thank you, Ms. Bellenger.
    Mr. Bertrand, you may proceed.

                  STATEMENT OF JAMES BERTRAND

    Mr. Bertrand. Good morning, Chairwoman and Ranking Member 
Bilbray. I am Jim Bertrand, and as president of Delphi Thermal 
Systems, I am pleased to be a part of this panel raising 
awareness and creating focus on the great opportunities for 
energy savings in our Federal buildings and installations.
    I recognize that implementing the policies and regulations 
that will govern these reforms presents a significant 
challenge. We at Delphi want to be part of that dialog that is 
used to resolve these questions, because we think that we have 
technology that can solve some of the problems. We are also 
pleased to share our experiences and present our technology to 
the Federal Government. We hope we can provide insights to help 
improve regulations and policies.
    Delphi is widely known as an auto parts manufacturer, but 
the reality is that we are a technology company. We hold over 
7,000 patents, and while most of our intellectual property is 
utilized by automotive manufacturers, there are many non-
automotive applications for our technology.
    One example is our micro-channel heat exchanger technology 
which has proven successful in both automotive and non-
automotive markets. The micro-channel heat exchanger has the 
potential to provide improved energy efficiency and reduce the 
impact on the environment because it is smaller, lighter, uses 
less refrigerant, and is able to achieve higher energy 
efficient ratings.
    If we replaced one aging heat exchanger in each of the 
500,000 Federal buildings, there would be four immediate 
benefits. First, 5 to 10 million less pounds of refrigerant in 
the atmosphere; 10 million fewer pounds of materials, mostly 
imported copper; more energy efficient optimized heating and 
cooling systems in reduced spaces; and, last, energy savings of 
up to 25 to 30 percent over traditional AC units with lower 
ratings.
    Delphi has sought to offer this solution to the Federal 
Government. However, our experience is that the Federal effort 
is focused on achieving building-wide reductions in 
efficiencies. We applaud this focus. But at the same time, this 
focus should not come at the cost of incremental but 
significant gains in efficiency. Better focusing on building 
components could result in some dramatic results. But from our 
view, the efforts to date have not yielded powerful enough 
incentives to accelerate the adoption of innovative green 
components in Federal buildings.
    Despite these challenges, there are some things that can be 
done to improve the situation. First, establish incentives for 
the implementation of energy efficient components. For example, 
Delphi is supportive of a provision of the Home Star 
legislation that establishes powerful additional incentives for 
homeowners who choose to implement available SEER standards, 18 
SEER. Is there an opportunity to create comparable incentives 
for buildings that are owned or leased by the Federal 
Government? The U.S. Green Building Council has also identified 
existing authority for DOE and the GSA to improve performance 
standards applicable to Federal buildings and leases.
    Second, examine opportunities for Federal procurement 
reform. Delphi is supportive of elements of legislation that 
improves Federal procurement of energy efficient building 
technology, such as Senator Carper's Improving Federal Use of 
Renewable Energy and Energy Efficiency Act of 2010. Delphi 
supports better measurement and data collection to assist in 
Federal energy efforts.
    We also believe greater flexibility is needed in 
procurement requirements for Federal buildings projects facing 
long delays. Technology is changing quickly, and this 
flexibility allows for the adoption of the best and newest 
technologies.
    Third, consider pilot programs to test and analyze retrofit 
performance. We believe that a pilot program examining 
implementation cost of retrofits, as well as the short-term and 
long-term efficiencies in savings of technology upgrades, would 
be helpful in guiding Federal efforts to select energy 
efficient technologies. We respectfully recommend that the 
pilot program should examine technology components.
    In conclusion, we have already stated that reducing energy 
consumption is an extremely hard challenge and we are no 
experts in creating guidelines like organizations such as the 
U.S. Green Building Council. But we do believe that the tools 
that are at the government's disposal have not been used in a 
way to encourage rapid adoption of components like our 
technology that can help the government achieve its goal of 
greener Federal buildings.
    We are honored to be on this panel and look forward to 
being part of the continuing dialog. Thank you. We look forward 
to taking any questions you may have.
    [The prepared statement of Mr. Bertrand follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. Watson. Thank you. I would like to thank all the 
members of the panel for your testimony today.
    We are now going to move to the question period and proceed 
under the 5-minute rule, but I want to remark on the testimony, 
Ms. Vaughan, that you made.
    I was thinking, and you had your slides up, and you said 
green buildings and so on, and I thought about airports. 
California was the first State in the Union to ban smoking on 
airlines, and now it is global. But you come out of the 
airports, and the first breath of air is all of that smoke that 
gets captured under the eaves because people are taking their 
last smoke before going in or their first coming out.
    So I would hope that when we talk about green buildings 
that we would attach ``and adjacent environment,'' because I 
think you are tremendously at risk when the first breath 
outside is filled with toxic smoke and the last breath going 
in, you have it in your lungs and it settles there for the 
whole time you are inside.
    So I just had to throw that out, and it occurred to me when 
you made your testimony. All of you are offering us valuable 
input as to how we need to proceed from here, and we are 
talking about perspectively but we are talking about 
retrofitting what we have now, and we are keeping in mind the 
cost.
    We have this huge deficit that people are harking at all 
the time, but there are certain things we need to do now to 
guarantee the health of people in this country and those coming 
into this country. So we are trying to balance between that. 
But I just wanted to reflect on the testimony that was made.
    So I am going to ask all of you, would you please define 
``zero net energy'' and to what extent has the physical comfort 
of human beings been considered in the movement toward zero net 
energy usage?
    I will start with you, Mr. Green, please.
    Mr. Green. Thank you, Madam Chairwoman.
    As I noted in my testimony, the work to do this or to 
accomplish this is very broad-based. There are a whole number 
of attributes that have to be looked at in that respect. So 
when we start looking at the indoor air quality, for example, 
how we look at achieving zero energy, there is a balance 
between all the components that are there. So it is going to 
take not only both the scientific research to get there, but it 
is also going to talk about human behavior and how we in fact 
achieve better human behavior in the buildings we are in.
    As you noted, once we stop people smoking in the buildings, 
the first thing they do is go outside of the building and start 
smoking. So what we have to do is we have to talk about how do 
we affect that behavior as well. How do we impact how we use 
our buildings? How do we impact the future of our buildings by 
achieving greater utilization today, even in existing 
buildings? I think that is part of the difficulty.
    So your question is what do we define as zero energy. Zero 
energy can take on a whole number of different definitions, and 
I think that the industry, as very broad-based as it is, must 
come together and also help define what zero energy is. Does it 
start at the supply? Does it start at the building? Where does 
it start initially and then where does it end, and how can we 
gather all the data necessary that we can make that achievement 
known? The metrics to get there have to be defined and also the 
level of performance.
    So what we have to do, there is a very long path to follow 
to get there. So I know I am not answering your question 
specifically. I am just trying to lay the groundwork that there 
is more work that needs to be done to say how do we achieve 
zero.
    Ms. Watson. Get us thinking.
    Ms. Vaughan.
    Ms. Vaughan. Thank you. Yes, there are several different 
definitions. One of the working definitions of net zero energy 
is first you reduce the energy load as much as possible so your 
building, it is a low energy building and it uses only as much 
energy per year as it can produce onsite from renewable 
sources. That is one working definition, but there are others 
as well.
    And how to balance energy efficiency and indoor air 
quality, we have some fine engineers in the room who are 
working on these things. We have standards like ASHRAE 62.
    And one of the things that we learned, I think, it is a 
very good question, back after the seventies when there was a 
focus on really tightening up buildings, some people forgot 
there was an indoor air quality issue if we did that. So there 
has been a lot of learning and adjusting, and I think a lot of 
progress in balancing the two, and it is that tradeoff that is 
so key.
    I would just refer quickly to Passive House. If we can 
learn, study these best practices and these examples, Passive 
House in Germany, it is a standard that can reduce energy use 
to the point where they don't even need a furnace, or improve 
the building envelope. It is focused on high insulation levels. 
But they have this constant air exchange. There are different 
concerns about how that could work in a hot, humid climate. But 
people are working on this, so I am hopeful.
    Ms. Watson. Thank you.
    Ms. Bellenger.
    Ms. Bellenger. Before I address the current question, I 
want to respond to your first question about smoking outside 
airports and public buildings. One of the provisions in ASHRAE 
Standard 189.1 is prohibiting smoking within 25 feet of an 
entrance, and there needs to be signage on the building to 
indicate that. So that is a recognized problem, that you don't 
want people jumping outside the building and smoking 
immediately, and that is addressed in that standard.
    The definition Ms. Vaughan gave for net zero energy 
buildings is really what we have been using. As Henry noted, 
there are a lot of different ways to define it. The building 
owner sees the utility bill, so we are looking at site energy 
and using a definition of net zero buildings as those that use 
no more energy on an annual basis than they can produce onsite. 
So that is consistent with what Ms. Vaughan just said.
    Within Standard 189.1 there is a requirement to comply with 
two other ASHRAE standards. ASHRAE has Standard 62.1, which is 
a ventilation standard, and you must comply with the 
ventilation rates that are required within that standard for 
the various types of building occupancy in order to comply with 
189.1. So you can't avoid bringing in the outside air or the 
proper amount of ventilation.
    Another standard we have is Standard 55, which is a 
standard for thermal comfort, and 189.1 also requires that you 
comply with Standard 55. So it is very much looking at the 
indoor environmental quality as part of doing a high 
performance green building.
    Ms. Watson. Thank you.
    Mr. Bertrand.
    Mr. Bertrand. Chairwoman Watson, Delphi is an eight-track 
component supplier. Our efforts relative to zero net energy 
have really focused at the component level and are very much 
geared toward the development of devices that have minimal 
impact on the environment.
    The micro-channel technology that I had in my testimony 
that I referred to is a good example of that, a device that 
obviously minimizes to the maximum extent possible energy 
consumption and minimizes environmental impact. So that is 
really the field of play that we have in the debate.
    Ms. Watson. Thank you.
    I now recognize Mr. Bilbray, our ranking member.
    Mr. Bilbray. Thank you. Just for the record, I want to 
assure everybody, but California will not have the problem with 
people smoking outside. The way it is going, we are going to 
outlaw all public smoking in the State of California, at least 
public smoking of tobacco.
    Why do people think I am joking when I say that? I will put 
you on an airplane and send you back to Sacramento.
    It is interesting to hear in this discussion, because we 
all know that indoor air is a major air pollution issue down 
the line. And not to make you think I am some kind of seventies 
hippie, but I actually own an adobe house. My wife, who is from 
New Orleans, said she came all the way across the country to 
live in a mud house. Now, I imagine what our radon numbers are, 
but it is a good thing southern California is not a high radon 
area.
    You remember how we did that. We sealed up in the 
seventies, and by the eighties the one crisis on energy was 
curtailed, and then we had the radon exposure was the next 
crisis, and so we kind of go through these series. I want to 
sort of get around to how we get to this practical application.
    Mr. Bertrand, you are talking about sub-components which 
really could add up. A good example I guess, what you are doing 
is with the electronic aspect on reducing energy consumption. 
What I need to do more of in my adobe house is go around and 
seal up all those little cracks that over 100 years have 
steadily widened. But you are doing it from an electron point 
of view, the component.
    It seems like though that our system, and I will say this, 
go back and forth, our system would not be able to accommodate 
your improvement, because we are looking more at the total 
refrigeration unit or air conditioning unit, not a component 
that could be plugged in to it.
    Have you run into that problem with our Federal process?
    Mr. Bertrand. I think to be fair, we could use more clarity 
on directing our efforts. What we have encountered, as I 
mentioned, is there is an emphasis on the total building 
system. There is a lot of energy around obviously the new 
standards for new buildings. But the question of how do we 
bring innovation to the existing fleet of buildings that we 
have is one that we think deserves more attention and one where 
maybe we don't need to paint such grandiose pictures.
    We should go after implementation--there was earlier 
testimony around how many off-the-shelf technologies there are. 
Certainly we have some. Other companies have them. There are 
many opportunities out there for us to make a significant 
improvement in the efficiency of the structures.
    Mr. Bilbray. Small steps make a lot of difference. And to 
paraphrase the Democratic Party, the way you eat an elephant is 
one small bite at a time.
    Ms. Bellenger, do we have the ability, see that we are not 
going over to Home Depot and pulling an air conditioner off-
the-shelf and sticking it in, as much as some people might 
think. We are actually designing engineering, not just the 
building, but even the electronic components, the 
refrigeration. Anybody here want to comment on that, and about 
the ability for us to integrate and get the expertise?
    Do we have the ability to tap into the expertise to know 
that these improved components may be out there and may be 
incorporated into our next big building that we look at? Do we 
have that capability in-house or do we have the ability to 
contract that capability to make sure that the finished 
product--is that part contracts we do when we go to the 
engineering side, we go to the design side?
    Mr. Green. Mr. Bilbray, you certainly have the capability 
of doing it. The difficulty I think today in the way buildings 
are procured don't facilitate that kind of collaboration. The 
problem today is that on the one hand you have a design 
component that designs a building. There are design engineers 
that are engaged in the design of the subsystems and the total 
building system, architectural, engineering, which includes 
mechanical, pumping, etc. They design a building based upon 
their best practice or their understanding. They may not reach 
out as broadly as going to a manufacturer of components to 
determine exactly what is new in the marketplace.
    Now, once the building is designed and it has been approved 
and started construction, you can't go back and change when you 
find there is something new or innovative that you could 
include in the building, because now we have a set of design 
documents that you have a bid process that says here is what 
you are going to build and here is what you are going to get.
    The capability of doing this is to go back to a systems 
approach and then doing what we would call an approach to 
design that is by not specification, but performance, allowing 
the performance factors to determine how the building is 
designed and making it--incentivizing during the construction 
process if in fact there is a way to change the project from 
its design in the construction process that would yield 
additional savings and/or better performance, and, again, based 
upon performance, not specifications.
    Mr. Bilbray. Right. Outcome based--let me tell you 
something. All the time I have been frustrated with 
environmental strategies or whatever is when the Federal 
Government goes to process-based instead outcome-based.
    One of the things I am very, very proud of as a Californian 
is so much of our environmental programs are successful, like 
our clean air, like our clean ocean plan, is that unlike the 
Feds, like the Clean Water Act, which are process-based, 
outcome-based is truly the environmental step. It is an 
evolutionary step beyond that.
    But before I leave, let me just ask for your indulgence. I 
would like to get down to one issue that we need to address. We 
may talk about these components, but one thing I learned at the 
Air Resources Board in California was before we allowed 
somebody to transfer a component into an automobile, even 
selling after-market, we prove longevity.
    Before I leave that analogy, I want to say one thing. Just 
as we forced the auto industry to go from carburetors to 
injectors, though they didn't want to, but to come up to the 
efficiency of clean and mileage, they had to go to a different 
technology. We need to put the same pressures on ourself to 
kind of force us to be on our game.
    But when it comes down to longevity, you take one of these 
components, let's just say you do have an efficient one. How 
are we doing the testing and how do we make sure that a unit is 
not just effective the day you buy it, but over 5, 10, 15 
years? Because there is where you will find marked differences 
in certain types of technologies.
    We have run into that in the air emissions issues with 
automobiles, where we literally had to outlaw products that 
looked good when you first bought them but became major 
environmental problems later. Do we have that strategy when it 
comes to this kind of efficiency, like the Star program?
    Mr. Bertrand. The other panel members may want to comment 
further on the details on the procurement process. The nature 
of our products do though, some of them can decay in terms of 
performance over time. So, Congressman, you are on to a very 
real issue, which is the efficiency of the component level at 
the start of the life versus later on. And looking at that 
total life cycle cost development I believe is a very important 
aspect and should be, if it isn't, strongly featured in the 
entire government procurement process as you would look to put 
precious taxpayer dollars to work to make sure the components 
we are putting in have the sustainability and will hold up over 
time and still deliver that performance level.
    Mr. Bilbray. Madam Chair, I appreciate you giving me the 
time. I would like to make a statement, and I sure hope 
somebody is listening about this.
    Of all the years working on environmental oversight stuff, 
I will bring a little street knowledge to you. I believe the E-
Star program needs to move on, needs to become more effective. 
I believe that there should be an E-Star standard that starts 
off with the initial efficiency that we use today. But there 
ought to be longer term ratings, to where we have two or three 
or four numbers so people understand that this product is very 
effective today, it will be effective in 2 years, it will be 
effective in 10, but at 12 there is going to be major problems, 
and that the consumer knows that because we have done the 
testing.
    That may seem like a whole big drawn out thing, but let me 
tell you something. Every after-market product that is sold in 
this country goes through that for automobiles. It is time we 
take a look at the same thing when we talk about efficiency.
    So those numbers, that ESTAR really means something beyond 
just what--how well something works today. And that means that 
we have to do the research, because I think all of us agree we 
are doing things to try to save this planet and trying to do it 
quickly and effectively. But where it is really going to pay 
off is the accumulative impact as long as the technology 
continues to operate. If it doesn't, everything we are doing is 
really for show.
    Thank you very much.
    Ms. Watson. I want to thank all the witnesses today. As you 
have just heard in the ranking member's comments, this is a 
burgeoning area of concern to our Federal Government, and those 
of us who have worked at local government and State government 
have been challenged by these issues, particularly those of us 
on the West Coast. So this is just the beginning of this dialog 
that we will be having. And technologies are being invented 
every single day that must be taken into consideration as we go 
for green buildings.
    So thanks to all of the witnesses. Your input goes into the 
record.
    And, Mr. Ranking Member, without objection--I would like to 
also thank the other Members that were here--but, without 
objection, we will adjourn this meeting.
    [Whereupon, at 12:03 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
